                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 108020019                                                                    Page 1 of 1



         We conducted an investigative review of an institution! with 22 NSF awards 2 for which (a) no
         final reports had been submitted, and (b) expenditures had been reported in quarterly financial
         reports covering periods after the expiration dates of the awards. The review found no evidence
         of fraud or misappropriation of award funds, but we noted that the institution had some
         questionable administrative and financial practices. These practices have been changed since the
         review began, according to the institution. There are no further issues to pursue in this matter,
         and no further action will be initiated.

         Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
